USCA11 Case: 18-12956

Date Filed: 12/03/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

Nos. 18-12956 ; 18-13227

District Court Docket No.
6:18-cv-OO 193-GAP-KRS
RENEE BELL,
Plaintiff - Appellant,
versus
FLORIDA HIGHWAY PATROL,
LARRY COSTANZO,
Defendants - Appellees.

Appeals from the United States District Court for the
Middle District of Florida

JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: December 03, 2019
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

USCA11 Case: 18-12956

Date Filed: 12/03/2019

Page: 1 of 4

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12956
Non-Argument Calendar

D.C. Docket No. 6:18-cv-00193-GAP-KRS
RENEE BELL,
Plaintiff-Appellant,
versus
FLORIDA HIGHWAY PATROL,
LARRY COSTANZO,
Defendants-Appellees.

No. 18-13227
Non-Argument Calendar

D.C. Docket No. 6:18-cv-00193-GAP-KRS

RENEE BELL,
Plaintiff-Appellant,

versus
FLORIDA HIGHWAY PATROL,
LARRY COSTANZO,

USCA11 Case: 18-12956

Date Filed: 12/03/2019

Page: 2 of 4

Defendants-Appellees.

Appeals from the United States District Court
for the Middle District of Florida

(December 3, 2019)
Before WILSON, NEWSOM and BRANCH, Circuit Judges.
PER CURIAM:
Renee Bell, proceeding pro se, appeals the dismissal of a lawsuit she filed in
2018 against her former employer, the Florida Highway Patrol, and her former
supervisor, Larry Costanzo. Bell raises a number of claims in her complaint,
including civil rights violations and employment discrimination, based on alleged
events that she says occurred between 2005 and 2006. The district court dismissed
Bell’s complaint, holding that it was barred by the applicable statutes of
limitations, the doctrine of res judicata (based on prior, dismissed lawsuits filed in
2005 and 2017 stemming from the same events), and sovereign immunity.
Because Bell failed to challenge each of the district court’s independent,
alternative grounds for its ruling in her brief, we affirm.

1 Bell also appealed the district court’s orders denying her motion for reconsideration and her
self-styled motion for “final closure,” but she has abandoned any challenge to those rulings by
failing to address them in her initial brief. See Timson v. Sampson, 518 F.3d 870, 874 (11th Cir.
2008).
2

USCA11 Case: 18-12956

Date Filed: 12/03/2019

Page: 3 of 4

Although-we liberally construe briefs filed by pro se litigants, “[ijssues not
briefed on appeal by a pro se litigant are deemed abandoned.” Timson v. Sampson,
518 F.3d 870, 874 (11th Cir. 2008) (citation omitted). A litigant abandons a legal
claim or argument when she fails to “plainly and prominently raise it” in her initial
brief. Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678, 681 (11th Cir. 2014)
(internal quotation marks and citation omitted). “We have long held that an
appellant abandons a claim when [s]he either makes only passing references to it or
raises it in a perfunctory manner without supporting arguments and authority.” Id.
(citations omitted). Moreover, we have held that a district court’s judgment should
be affirmed if an appellant fails to challenge each of the court’s independent,
alternative grounds for its ruling. Id. at 680 (“To obtain reversal of a district court
judgment based on multiple, independent grounds, an appellant must convince us
that every stated ground for the judgment against [her] is incorrect. When an
appellant fails to challenge properly on appeal one of the grounds on which the
district court based its judgment, [s]he is deemed to have abandoned any challenge
of that ground, and it follows that the judgment is due to be affirmed.”).
Here, the district court provided several alternative, independent
justifications for its dismissal of Bell’s complaint. Although Bell’s brief
challenges the district court’s dismissal of her case generally, and it adequately
raises the sovereign-immunity issue, it does not plainly or prominently raise any
3

USCA11 Case: 18-12956

Date Filed: 12/03/2019

Page: 4 of 4

arguments that her claims should not be barred by the applicable statutes of
limitations or res judicata. She does not argue, for instance, that the district court
applied the wrong statutes of limitations or that she qualified for an exception to
the doctrine of res judicata. She has therefore abandoned her challenge of the
district court’s order by failing to address all of its independent grounds for
dismissal. See Sapuppo, 739 F.3d at 680.
Because Bell has abandoned her ability to challenge the district court’s
ruling, we need not proceed to the merits. The district court did not err in
dismissing her complaint.
AFFIRMED.

4

Case 6:18-cv-00193-GAP-KRS Document 19 Filed 06/06/18 Page 1 of 2 PagelD 180

United States District Court
Middle District Of Florida
Orlando Division
RENEE D. BELL,
Plaintiff,
Case No: 6:18-cv-193-Orl-31KRS

v.
FLORIDA HIGHWAY PATROL and
LARRY COSTANZO,
Defendants.

Order
This matter comes before the Court without a hearing on the Motion to Dismiss (Doc. 14)
filed by Defendant Florida Highway Patrol (henceforth, “FHP”). The deadline for a response
passed 30 days ago, but the Plaintiff has not has not filed a response in opposition to the motion.
This is Plaintiffs third suit based on her employment by FHP more than a decade ago.
See Bell v. Florida Highway Patrol, Case No. 6:05-cv-1806-Orl-31DAB and Bell v. Florida
Highway Patrol, Case No. 6:17-cv-326-31KRS. As set forth in FHP’s motion, the claims that the
Plaintiff asserts (or attempts to assert) in her latest complaint are barred by the statutes of
limitations, the doctrines of res judicata and/or collateral estoppel, and, in some instances,
sovereign immunity.
To put it in simpler terms, the Plaintiff had her day in court, and she lost. It is time to
move on. If the Plaintiff files suit based on these claims again, the Court will consider imposing
monetary sanctions.
In consideration of the foregoing, it is hereby

Case 6:18-cv-00193-GAP-KRS Document 19 Filed 06/06/18 Page 2 of 2 PagelD 181

ORDERED that the Motion to Dismiss (Doc. 14) is GRANTED. The Complaint is
DISMISSED WITH PREJUDICE, and the Clerk is directed to dose the file.
DONE and ORDERED in Chambers, Orlando, Florida on June 6, 2018.

UNITED STATES DISTRICT JUDGE

-2-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 1 of 9 PagelD 234

United States District Court
Middle District Of Florida
Orlando Division
RENEE D. BELL,
Plaintiff,
Case No: 6:18-cv-193-Orl-31KRS

v.
FLORIDA HIGHWAY PATROL and
LARRY COSTANZO,
Defendants.

Report and Recommendation
TO THE UNITED STATES DISTRICT COURT:
This cause came on for consideration without oral argument on the following motion filed
herein:
MOTION:

APPLICATION TO PROCEED IN DISTRICT COURT
WITHOUT PREPAYING FEES OR COSTS (Doc. No. 29)

FILED:

July 31, 2018

THEREON it is RECOMMENDED that the motion be DENIED.
I.

BACKGROUND
On February 7, 2018, Renee D. Bell, appearing pro se, filed a complaint against Defendants

Florida Highway Patrol (“FHP”) and Larry Costanzo (collectively “Defendants”), alleging several
claims against Defendants stemming from her employment with FHP. Doc. No. 1. FHP moved
to dismiss the complaint with prejudice, asserting that Plaintiff failed to state a claim and that her
causes of action were barred by the statute of limitations, res judicata, collateral estoppel, and, in
some cases, sovereign immunity. Doc. No. 14. Plaintiff did not respond to the motion to dismiss.

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 2 of 9 PagelD 235

On June 6, 2018, the presiding judge, the Honorable Gregory A. Presnell, dismissed the complaint
with prejudice, finding:
This is Plaintiffs third suit based on her employment by FHP more than a
decade ago. See Bell v. Florida Highway Patrol, Case No. 6:05-cv-1806-0rl31DAB and Bell v. Florida Highway Patrol, Case No. 6:17-cv-326-31KRS. As set
forth in FHP’s motion, the claims that the Plaintiff asserts (or attempts to assert) in
her latest complaint are barred by the statutes of limitations, the doctrines of res
judicata and/or collateral estoppel, and, in some instances, sovereign immunity.
To put it in simpler terms, the Plaintiff had her day in court, and she lost. It
is time to move on. If the Plaintiff files suit based on these claims again, the Court
will consider imposing monetary sanctions.
Doc. No. 19.
On June 21, 2018, Plaintiff filed a “Motion/Response for Denial of Sanctions, In Response
to Defendant/FHP Motion, Memorandum of Law, and Request for Reinstatement.” Doc. No. 20.
Judge Presnell denied the motion. Doc. No. 21. Plaintiff appealed from that order without paying
the filing fee. Doc. No. 23. She simultaneously filed a motion for reconsideration of the denial of
that motion, but her motion for reconsideration was denied as moot based on the filing of the notice
of appeal. Doc. Nos. 22, 24.
On July 23, 2018, Plaintiff filed a “Motion/Request for ‘This Court[’]s’ Final Closure Prior
to ‘Appeal,’” which in substance asked for reconsideration and/or reopening of the case. Doc. No.
26. Judge Presnell denied the motion. Doc. No. 27. Plaintiff then appealed from the denial of
that motion, and she also filed a motion to proceed without paying costs, which consisted of an
Application to Proceed in District Court without Prepaying Fees or Costs. Doc. Nos. 28, 29.
The Application to Proceed in District Court without Prepaying Fees or Costs was referred
to me for issuance of a Report and Recommendation.

-2-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 3 of 9 PagelD 236

II.

PROCEDURAL HISTORY
In her complaint {Bell v. Florida Highway Patrol, No. 6:18-cv-193-Orl-31KRS, “Bell III,”

Doc. No. 1), Plaintiff asserts numerous claims against Defendants that pertain to the same claims
she has previously raised in this Court and that have been addressed in great detail. See Bell v. Fla.
Highway Patrol, No. 6:05-cv-1806-Orl-31DAB {“Bell F); Bell v. State of Fla., No. 6:17-cv-326Orl-31KRS {“Bell IF). As explained in my Report and Recommendation in Bell II, Plaintiffs
lawsuit has a long and complex history, which I only briefly restate here, in relevant part, to provide
context. See, e.g., Bell v. Fla. Highway Patrol, 325 F. App’x 758 (11th Cir. 2009) (per curiam)
(reversing dismissal of second amended complaint); 476 F. App’x 856 (11th Cir. 2012) (per curiam)
(affirming dismissal of third amended complaint); 589 F. App’x 473 (11th Cir. 2014) (per curiam)
(affirming denial of leave to file fourth amended complaint); Bell II, Doc. No. 10 (M.D. Fla. March
13, 2017), report and recommendation adopted by Doc. No. 16 (M.D. Fla. April 18, 2017)
(dismissal of complaint as frivolous upon review of motion to proceed in forma pauperis).
In Bell I, Plaintiff sought three million dollars in damages and injunctive relief against
Defendants via her third amended complaint. Bell I, Doc. No. 84, at 34. She claimed that she was
unfairly demoted and subsequently terminated from employment, after an incident occurring on
August 3, 2005. Id. at 2-3. Defendants terminated her from employment on February 20, 2006,
for allegedly disregarding directions from her supervisor on August 3, 2005, and generally creating
a hostile working environment. Id. at 6, 17. In her complaint, Bell claimed defamation, racial
discrimination, negligent infliction of emotional distress, violations of the Americans with
Disabilities Act (“ADA”), violations of the Family Medical Leave Act (“FMLA”), hostile work
environment, administrative irregularities in the procedures used to terminate her, and that her

-3 -

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 4 of 9 PagelD 237

termination violated the U.S. Constitution and constituted retaliation. See, e.g., Bell I, Doc. No. 84,
at 4, 8, 17, 23,29, 30,31.
Defendants moved to dismiss the third amended complaint for failure to comply with
procedural requirements and failure to state a cause of action. Bell I, Doc. No. 91. The Court
granted the motion with leave to amend. Bell /, Doc. No. 110. Instead of amending, Plaintiff
appealed to the Eleventh Circuit. Bell I, Doc. No. 118.

While the appeal was pending, Plaintiff

filed a fourth amended complaint, which the Court dismissed with prejudice. Bell /, Doc. Nos. 127,
135. Plaintiff also appealed from that dismissal. Belli, Doc. No. 137.
The Eleventh Circuit held that the dismissal order of Plaintiffs third amended complaint
was a final appealable order after Plaintiff filed her notice of appeal; thus, because this Court lacked
jurisdiction to dismiss the fourth amended complaint, the Eleventh Circuit remanded with directions
to strike Plaintiffs fourth amended complaint and vacate all orders after the notice of appeal. Bell
I, Doc. No. 146. The Eleventh Circuit noted that, by appealing rather than amending the complaint,
Plaintiff waived her right to amend. Id.
The Eleventh Circuit subsequently affirmed the dismissal of Plaintiffs third amended
complaint. Bell, 476 F. App’x at 856. Plaintiff requested to refile a fourth amended complaint,
but this Court ultimately denied that request. Bell I, Doc. No. 150, 162. Plaintiff again appealed,
but the Eleventh Circuit affirmed. Bell, 589 F. App’x at 474. Plaintiff filed a petition for writ of
certiorari to the U.S. Supreme Court, but that petition was denied, Bell v. Fla. Highway Patrol, 137
S. Ct. 234 (2016), as was her request for rehearing, Bell v. Fla. Highway Patrol, 137 S. Ct. 844
(2017).
One month later, Plaintiff filed the complaint in Bell II. Bell II, Doc. No. 1. Instead of
naming FHP and Costanzo as Defendants, Plaintiff named the State of Florida. Id. In conjunction

-4-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 5 of 9 PagelD 238

with the complaint, Plaintiff filed a motion for leave to proceed in forma pauperis. Bell II, Doc.
No. 2. The complaint lacked detailed factual allegations but stated that it was “a new case in respect
to prior case filed and dismissed.” Bell II, Doc. No. 1. Plaintiff alleged: numerous violations of
the U.S. Constitution; criminal conspiracy under 18 U.S.C. §§ 241-242; a whistleblower claim
under § 1983; defamation; violations of the ADA; violations of Florida’s administrative laws; and
failure to protect her from unethical conduct. Id. at 1-2. She sought twelve million dollars in
damages, “restoration of damage to name,” and backpay. Id. at 2.
I issued a Report and Recommendation recommending that the complaint be dismissed as
frivolous. Bell II, Doc. No. 10. Specifically, I noted that it appeared that Plaintiff was attempting
to use a new case to file the fourth amended complaint that she was denied in Bell I. Id. at 7. In
addition, (1) Plaintiffs § 1983 claims were barred by Eleventh Amendment immunity and the statute
of limitations; (2) the criminal conspiracy statutes—18 U.S.C. §§ 241 and 242—were unavailable
to assert a private cause of action; (3) the ADA claims were barred by sovereign immunity; (4) her
defamation claims were barred by the statute of limitations; (5) several of her claims for violations
of the Florida Constitution, Administrative Rules, and unspecified other regulations, were either
unavailable as a private cause of action or barred by sovereign immunity; and (6) none of the
grounds stated a claim upon which relief could be granted. Id. at 8-16. I recommended that the
complaint be dismissed without leave to amend. Id. at 17.

Judge Presnell overruled Bell’s

objections and adopted the Report and Recommendation. Bell II, Doc. No. 16. Therefore, the
complaint was dismissed with prejudice on April 18, 2017. Id.
Plaintiff instituted the instant case in February 2018. Bell III, Doc. No. 1.

-5-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 6 of 9 PagelD 239

III.

ALLEGATIONS OF THE COMPLAINT.
In this case, Plaintiff seeks another opportunity to address allegations regarding her

employment with FHP. See Bell III, Doc. No. 1, at 1 (“Comes now, the undersigned . . . submit a
new case, in respect to a previous dismissal of the above caption case.”)- Based on her termination
of employment with FHP in 2006, Plaintiff again alleges wrongful discharge, racial discrimination
under § 1983, retaliation, emotional distress, defamation, ADA violations, FMLA violations,
whistleblower claims, civil rights violations, and conspiracy, all from what she terms an “assault”
by Defendants on August 3, 2005. Id. at 7-12. Plaintiff seeks twelve million dollars in damages,
“restoration of damage to name,” back pay from February 20, 2006 to present, payment for property
loss from June 13, 1988 to present, “return of written and implied contract/property interest,”
“correction to retirement system,” and “correction of monetary amount.” Id. at 16.
The Court dismissed Plaintiff s complaint with prejudice. Bell III, Doc. No. 19. Plaintiff
separately appealed two post-dismissal orders denying her motions to reconsider the dismissal or
reinstate the case. Bell III, Doc. Nos. 23,28. She filed an Application to Proceed in District Court
without Prepaying Fees or Costs in conjunction with her second notice of appeal, which was referred
to me for issuance of a Report and Recommendation. Bell III, Doc. No. 29. For purposes of this
Report and Recommendation, I will construe Plaintiffs application as a request for leave to appeal
in forma pauperis.1 I also assume, for purposes of this Report and Recommendation, that Plaintiff
seeks leave to appeal in forma pauperis as to both of her pending appeals. Doc. Nos. 23, 28.

1 Fed. R. App. P. 24 provides that a party who wishes to appeal in forma pauperis must file a motion
in the district court supported by an affidavit that (1) shows in the detail prescribed by Form 4 of the Appendix
of Forms the party’s inability to pay or give security for fees and costs; (2) claims entitlement to redress; and
(3) states the issues the party intends to present on appeal. Bell filed a motion supported by financial
affidavits. Doc. No. 29. She filed separate notices of appeal, in which she stated what she wished to appeal.
Doc. Nos. 23,28. Because I recommend that leave to appeal in forma pauperis be denied, I have not required
Bell to file a motion to proceed in forma pauperis that strictly complies with Fed. R. App. P. 24.

-6-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 7 of 9 PagelD 240

IV.

STANDARD OF REVIEW.
“The only statutory requirement for the allowance of an indigent’s appeal is the applicant’s

‘good faith.’” Ellis v. United States, 356 U.S. 674, 674 (1958) (citing 28 U.S.C. § 1915). “In the
absence of some evident improper motive, the applicant’s good faith is established by the
presentation of any issue that is not plainly frivolous.” Id. (citing Farley v. United States, 354 U.S.
521 (1957)). “Determination of good faith necessitates an inquiry into the appeal’s merits, but such
inquiry is limited to whether [the] appeal involves legal points arguable on their merits, and is
therefore not frivolous, and does not require that probable success be demonstrated.” DeSantis v.
United Techs. Corp., 15 F. Supp. 2d 1285, 1289 (M.D. Fla. 1998), aff'd without opinion, 193 F.3d
522 (11th Cir. 1999) (citing Jones v. Frank, 622 F. Supp. 1119 (W.D. Tex. 1985)). “An argument
is frivolous only when it appears the factual allegations are clearly baseless or the legal theories are
indisputably meritless.” Wilson v. Berryhill, No. 16-CV-81881-BRANNON, 2017 WL 4305125,
at *1 (S.D. Fla. Aug. 22, 2017) (citing Neitzke v. Williams, 490 U.S. 319, 327 (1989); Carroll v.
Gross, 984 F.2d 392, 393 (11th Cir. 1993)). Therefore, an application for leave to appeal in forma
pauperis is properly denied “if it appears—objectively—that the appeal cannot succeed as a matter
of law.” DeSantis, 15 F. Supp. 2d at 1289 (citations omitted).
V.

ANALYSIS.
Although Plaintiffs complaint is difficult to follow, it is apparent that it is a continuation of

Plaintiffs previous lawsuits in Bell / and Bell II. All of her claims involve her employment with
FHP and her termination from employment in February 2006.
In her first notice of appeal (Doc. No. 23), Plaintiff appeals from the denial of her motion
for reconsideration of the dismissal, with prejudice, of her complaint (Doc. No. 21). Plaintiffs
second notice of appeal is less clear, but it follows the denial of her “Motion/Request for ‘This

-7-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 8 of 9 PagelD 241

Court[’]s’ Final Closure Prior to ‘Appeal.’” Doc. Nos. 27, 28. The second notice of appeal was
accompanied by the subject motion for leave to appeal in forma pauperis. Doc. No. 29.
Plaintiffs second notice of appeal is untimely. In general, a notice of appeal must be filed
within thirty days after entry of the judgment or order appealed.

Fed. R. App. P. 4(a)(1)(A).

However, motions under Federal Rules of Civil Procedure 50(b), 52(b), 54, 59 and 60 toll the time
for appealing. Fed. R. App. P. 4(a)(4)(A). Assuming that Plaintiffs “Motion/Request for ‘This.
Court[’]s’ Final Closure Prior to ‘Appeal’” qualified as motion to “alter or amend the judgment”
under Rule 59, it was not filed until July 23, 2018, and the order of dismissal was entered on June
6, 2018. Thus, Plaintiffs second motion for reconsideration was untimely and did not toll the time
to appeal from the final judgment. See Fed. R. Civ. P. 59(e) (allowing twenty-eight days to file
motion to alter or amend judgment after judgment is entered); see also Kight v. IPD Printing &
Distrib., Inc., 427 F. App’x 753, 754 (11th Cir. 2011) (per curiam)2 (construing motion for
reconsideration as falling under Rule 59(e) and finding it untimely as not filed within twenty-eightday window). Accordingly, her second notice of appeal is legally frivolous. Cf In re Trans World
Airlines, 225 F. App’x 91,92 (3d Cir. 2007) (no arguable basis to challenge district court’s dismissal
of appeal from bankruptcy court because notice of appeal was untimely).
Assuming that Plaintiff also seeks leave to appeal in forma pauperis as to the first notice of
appeal, on the merits Plaintiffs appeal is frivolous. In this case, Plaintiff attempts to raise the same
claims as those raised in Bell I and Bell II. As discussed in previous Reports and Recommendations
and Orders, each of her claims has been previously dismissed, ultimately without leave to amend.
Therefore, Bell has no valid basis to appeal.
VI.

RECOMMENDATION.

2 Unpublished opinions of the Eleventh Circuit are cited as persuasive authority.

-8-

Case 6:18-cv-00193-GAP-KRS Document 31 Filed 08/16/18 Page 9 of 9 PagelD 242

For the reasons discussed herein, I RESPECTFULLY RECOMMEND that the
Court DENY the motion for leave to appeal in forma pauperis (Doc. No. 29), CERTIFY in writing
to the United States Court of Appeals for the Eleventh Circuit that the appeal is not taken in good
faith and DIRECT the Clerk of Court to serve a copy of the Court’s ruling on this Report and
Recommendation on the Clerk of Court for the United States Court of Appeals for the Eleventh
Circuit. I further recommend that after the Court rules on the pending motion, it DIRECT the
Clerk of Court to close the file in this case.
It is ORDERED that Plaintiff shall not file any additional motions or other documents, other
than a written objection to this Report and Recommendation, pending the resolution of this Report
and Recommendation.
NOTICE TO PARTIES
A party has fourteen days from this date to file written objections to the Report and
Recommendation’s factual findings and legal conclusions.

A party’s failure to file written

objections waives that party’s right to challenge on appeal any unobjected-to factual finding or legal
conclusion the district judge adopts from the Report and Recommendation. See 11th Cir. R. 3-1.
Recommended in Orlando, Florida on August 16, 2018.

XarCa R. SpauCding
KARLA R. SPAULDING
UNITED STATES MAGISTRATE JUDGE
Copies furnished to:
Presiding District Judge
Counsel of Record
Unrepresented Party
Courtroom Deputy

-9-

Case 6:18-cv-00193-GAP-KRS Document 32 Filed 09/04/18 Page 1 of 2 PagelD 243

United States District Court
Middle District Of Florida
Orlando Division
RENEE D. BELL,
Plaintiff,
Case No: 6:18-cv-193-Orl-31KRS

v.
FLORIDA HIGHWAY PATROL and
LARRY COSTANZO,
Defendants.

ORDER
This cause comes before the Court on Application to Proceed in District Court without
Prepaying Fees or Costs (Doc. No. 29) filed July 31, 2018.
On August 16, 2018, the United States Magistrate Judge issued a report (Doc. No. 31)
recommending that the motion be denied. No objections have been filed. Therefore, it is
ORDERED as follows:
1.

The Report and Recommendation is CONFIRMED and ADOPTED as part of this
Order.

2.

The Application to Proceed in District Court without Prepaying Fees or Costs (Doc.
29) is DENIED.

The Court further certifies to the U.S. Court of Appeals for the Eleventh Circuit that
Plaintiffs appeal is not taken in good faith. The Clerk is directed to serve a copy of this Order on
the clerk of Court for the Eleventh Circuit Court of Appeals, and thereafter close this case.

Case 6:18-cv-00193-GAP-KRS Document 32 Filed 09/04/18 Page 2 of 2 PagelD 244

DONE and ORDERED in Chambers, Orlando, Florida on September 4, 2018.

UNITED STATES DISTRICT JUDGE

Copies furnished to:
United States Magistrate Judge
Counsel of Record
Unrepresented Party

-2-

Case 6:18-cv-00193-GAP-KRS Document 34 Filed 10/25/18 Page 1 of 1 PagelD 256

United States District Court
Middle District Of Florida
Orlando Division
RENEE D. BELL,
Plaintiff,
Case No:

v.

6:18-cv-193-Orl-31KRS

FLORIDA HIGHWAY PATROL and
LARRY COSTANZO,
Defendants.

Order
Upon consideration of Plaintiff s Second Motion/Reconsideration (Doc. 33), and to the
extent this Court still has jurisdiction of this matter, it is
ORDERED that the Motion is DENIED.
DONE and ORDERED in Chambers, Orlando, Florida on October 25, 2018.

/'CRE(<DRY aTpRESNELL
UNITED STATES DISTRICT JUDGE

Copies furnished to:
Counsel of Record
Unrepresented Party

USCA11 Case: 18-13227

Date Filed: 02/19/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. I8-12956-HH; 18-13227 -HH
RENEE BELL,
Plaintiff - Appellant,
versus
FLORIDA HIGHWAY PATROL,
LARRY COSTANZO,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITIONfS-) FOR REHEARING AND PETITIONS S') FOR REHEARING EN BANC
BEFORE: WILSON, NEWSOM and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

USCA11 Case: 18-12956

Date Filed: 04/01/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

Nos. 18-12956-HH; 18-13227-HH
RENEE BELL,
Plaintiff - Appellant,
versus
FLORIDA HIGHWAY PATROL,
LARRY COSTANZO,
Defendants - Appellees.
On Appeal from the United States
District Court for the Middle District of Florida
ORDER:
All pending motions are DENIED.
The Clerk’s Office is DIRECTED to issue the mandate. See Fed. R. App. P. 41(b).

DAVID J. SMITH
Clerk of the United States Court of
Appeals for the Eleventh Circuit
ENTERED FOR THE COURT - BY DIRECTION

